TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                     Fiscal Year 2012 Review of Compliance
                     With Legal Guidelines When Conducting
                         Seizures of Taxpayers’ Property



                                           June 29, 2012

                              Reference Number: 2012-30-072




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.tigta.gov
                                                 HIGHLIGHTS


FISCAL YEAR 2012 REVIEW OF                             The amount of the liability for which the
COMPLIANCE WITH LEGAL GUIDELINES                        seizure was made was not correct on the
WHEN CONDUCTING SEIZURES OF                             notice of seizure provided to the taxpayer.
TAXPAYERS’ PROPERTY                                     (I.R.C. § 6335(a))
                                                       Proceeds resulting from the seizure were

Highlights                                              not properly applied to the taxpayer’s
                                                        account. (I.R.C. § 6342(a))

Final Report issued on June 29, 2012                   Information relating to the sale of the seized
                                                        property was either incorrect or not provided
Highlights of Reference Number: 2012-30-072             to the taxpayer. (I.R.C. § 6340(c))
to the Internal Revenue Service Commissioner        When legal and internal guidelines are not
for the Small Business/Self-Employed Division.      followed, it could result in the abuse of
IMPACT ON TAXPAYERS                                 taxpayers’ rights.

To ensure taxpayers’ rights are protected, the      WHAT TIGTA RECOMMENDED
IRS Restructuring and Reform Act of 1998            TIGTA recommended that the Director,
amended the seizure provisions in Internal          Collection Policy, Small Business/Self-Employed
Revenue Code (I.R.C.) Sections (§§) 6330            Division, include an instruction in the Internal
through 6344. The IRS did not always comply         Revenue Manual that the newspaper
with these statutory requirements. Although         advertisement must contain the same legal
TIGTA did not identify instances in which           description of the property and conditions of sale
taxpayers were adversely affected,                  that are shown on Form 2434, Notice of Public
noncompliance with I.R.C. requirements could        Auction Sale, or Form 2434-A, Notice of Sealed
result in abuses of taxpayers’ rights.              Bid Sale. In their response to the report, IRS
WHY TIGTA DID THE AUDIT                             officials agreed with the recommendation and
                                                    plan to revise the Internal Revenue Manual to
I.R.C. § 7803(d)(1)(A)(iv) requires TIGTA to        specifically require that the Notice of Sale
annually evaluate the IRS’s compliance with         contain the same information as the
the legal seizure provisions to ensure that         advertisement.
taxpayers’ rights were not violated while
seizures were being conducted.
WHAT TIGTA FOUND
TIGTA reviewed a random sample of 50 of the
747 seizures conducted from July 1, 2010,
through June 30, 2011, to determine whether
the IRS is complying with legal and internal
guidelines when conducting each seizure.
In the majority of seizures, the IRS followed all
guidelines, and TIGTA did not identify any
instances in which the taxpayers were adversely
affected. However, in 11 seizures, TIGTA
identified 14 instances in which the IRS did not
comply with a particular I.R.C. requirement.
Specifically, TIGTA found:
   The sale of the seized property was not
    properly advertised. (I.R.C. § 6335(b))
                                                    DEPARTMENT OF THE TREASURY
                                                           WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                     June 29, 2012


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION


 FROM:                            Michael E. McKenney
                                  Acting Deputy Inspector General for Audit

 SUBJECT:                         Final Audit Report – Fiscal Year 2012 Review of Compliance With
                                  Legal Guidelines When Conducting Seizures of Taxpayers’ Property
                                  (Audit # 201230002)

 This report presents the results of our review to determine whether seizures1 conducted by the
 Internal Revenue Service (IRS) complied with legal provisions set forth in Internal Revenue
 Code (I.R.C.) Sections (§§) 6330 through 6344 and with the IRS’s own internal procedures. The
 Treasury Inspector General for Tax Administration is required under I.R.C. § 7803(d)(1)(A)(iv)
 to annually evaluate the IRS’s compliance with the legal seizure provisions to ensure that
 taxpayers’ rights were not violated while seizures were being conducted. We have evaluated the
 IRS’s compliance with the seizure provisions since Fiscal Year 1999. This audit was not
 intended to determine whether the decision to seize was appropriate or to identify the cause of
 any violations. The audit is included in our Fiscal Year 2012 Annual Audit Plan and addresses
 the major management challenge of Taxpayer Protection and Rights.
 Management’s complete response to the draft report is included as Appendix VII.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendation.
 Please contact me at (202) 622-6510 if you have questions or Frank Dunleavy, Acting Assistant
 Inspector General for Audit (Compliance and Enforcement Operations), at (213) 894-4470
 (Ext. 128).




 1
     Taking a taxpayer’s property for unpaid tax is commonly referred to as a seizure.
                       Fiscal Year 2012 Review of Compliance With Legal Guidelines
                             When Conducting Seizures of Taxpayers’ Property




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Legal Provisions and Internal Procedures Were Not
          Always Adhered to When Conducting Seizures ........................................... Page 3
                    Recommendation 1:............................................................Page 6


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 7
          Appendix II – Major Contributors to This Report ........................................ Page 8
          Appendix III – Report Distribution List ....................................................... Page 9
          Appendix IV – Outcome Measure ................................................................ Page 10
          Appendix V – Synopsis of Selected Legal Provisions for
          Conducting Seizures ..................................................................................... Page 11
          Appendix VI – Prior Reports on Compliance With Seizure Procedures ...... Page 14
          Appendix VII – Management’s Response to the Draft Report ..................... Page 15
         Fiscal Year 2012 Review of Compliance With Legal Guidelines
               When Conducting Seizures of Taxpayers’ Property




                        Abbreviations

FY                Fiscal Year
I.R.C.            Internal Revenue Code
IRM               Internal Revenue Manual
IRS               Internal Revenue Service
TIGTA             Treasury Inspector General for Tax Administration
                    Fiscal Year 2012 Review of Compliance With Legal Guidelines
                          When Conducting Seizures of Taxpayers’ Property




                                              Background

The collection of unpaid tax by the Internal Revenue Service (IRS) generally begins with letters
to the taxpayer followed by telephone calls and personal contacts by an IRS employee. The
employees who make personal contacts are referred to as revenue officers. They consider the
taxpayer’s ability to pay the tax and discuss alternatives, such as an installment agreement or an
offer in compromise.1 If these actions have been taken and the taxpayer has not fully paid the tax
due, the revenue officer has the authority to take the taxpayer’s funds or property for the
payment of tax. Taking a taxpayer’s property for unpaid tax is commonly referred to as a
“seizure.”
To ensure that taxpayer rights are protected, the IRS Restructuring and Reform Act of 19982
amended the seizure provisions in Internal Revenue Code (I.R.C.) Sections (§§) 6330 through
6344. These provisions and the IRS’s internal procedures are very specific regarding how a
seizure should be performed. See Appendix V for a synopsis of the applicable legal provisions.
The Treasury Inspector General for Tax Administration (TIGTA) is required under
I.R.C. § 7803(d)(1)(A)(iv) to annually evaluate the IRS’s compliance with these legal seizure
provisions. We have evaluated the IRS’s compliance with the seizure provisions since Fiscal
Year (FY)3 1999. See Appendix VI for a list of all prior audit reports issued on the IRS’s
compliance with seizure procedures.
Following passage of the IRS Restructuring and Reform Act of 1998, IRS seizures decreased
from 10,090 in FY 1997 to 74 in FY 2000. The number of seizures has increased since FY 2000;
however, seizures in FY 2011 were still 8 percent of those reported for FY 1997. Although
seizures made during FY 2011 were 28 percent higher than those made during FY 2010, it is
unlikely that they will ever return to pre-1998 levels. Figure 1 illustrates the number of seizures
made over the past five fiscal years.




1
  An offer in compromise is a proposal by a taxpayer to settle an unpaid account(s) for less than the full amount of
the balance due.
2
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
3
  A 12-consecutive-month period ending on the last day of any month, except December. The Federal
Government’s fiscal year begins on October 1 and ends on September 30.
                                                                                                              Page 1
                       Fiscal Year 2012 Review of Compliance With Legal Guidelines
                             When Conducting Seizures of Taxpayers’ Property



                                  Figure 1: IRS Seizures by Fiscal Year




               Source: IRS Data Books.4

This review was performed at the Small Business/Self-Employed Division Headquarters in
New Carrollton, Maryland, during the period August 2011 through February 2012. The audit
focused on determining whether the IRS conducted seizures in compliance with legal and
internal procedures. It was not intended to determine whether the decision to seize was
appropriate or to identify the cause of any violations. We did not assess internal controls
because doing so was not applicable within the context of our audit objective. Otherwise, we
conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




4
    The IRS Data Book is a report that describes activities conducted by the IRS during the fiscal year.
                                                                                                           Page 2
                    Fiscal Year 2012 Review of Compliance With Legal Guidelines
                          When Conducting Seizures of Taxpayers’ Property




                                      Results of Review

Legal Provisions and Internal Procedures Were Not Always Adhered
to When Conducting Seizures
We reviewed a random sample of 50 seizures from the 747 conducted from July 1, 2010, through
June 30, 2011, to determine whether the IRS is complying with legal and internal guidelines
when conducting each seizure. Our review included a total of 58 guidelines for each seizure.5 In
the majority of seizures, the IRS followed all guidelines applicable to the respective case, and we
did not identify any instances in which the taxpayers were adversely affected. However, in
11 seizures, we identified 14 instances in which the IRS did not comply with a particular I.R.C.
requirement.6 Not following the legal and internal guidelines could result in the abuse of
taxpayers’ rights. Specifically, we found:
       Five instances in which the sale of the seized property was not properly advertised.
        (I.R.C. § 6335(b))
       Four instances in which the amount of the liability for which the seizure was made was
        not correct on the notice of seizure provided to the taxpayer. (I.R.C. § 6335(a))
       Three instances in which proceeds resulting from the seizure were not properly applied to
        the taxpayer’s account. (I.R.C. § 6342(a))
       Two instances in which the required information relating to the sale of the seized
        property was either incorrect or not provided to the taxpayer. (I.R.C. § 6340(c))

Sales of seized properties were not always properly advertised
I.R.C. § 6335(b) requires the IRS, as soon as practicable after the seizure of property, to give
notice to the owner and publish a notification in a newspaper distributed within the county where
the seizure was made. If there is no newspaper published or generally circulated in the county,
the IRS must post a notice at the post office nearest the place where the seizure is made, and in
not less than two other public places. The notice must specify the property to be sold and the
time, place, manner, and conditions of the sale thereof.


5
  The guidelines applicable for each seizure vary due to the timing between the date of seizure and date of our
review. For example, at the time of our review, the sale for the seized property may not have been advertised, the
sale may have been advertised but had not yet occurred, the property may have been redeemed or released prior to
sale, or the property may have been sold.
6
  Some seizures had more than one instance in which the IRS did not comply with a particular I.R.C. requirement.
                                                                                                            Page 3
                     Fiscal Year 2012 Review of Compliance With Legal Guidelines
                           When Conducting Seizures of Taxpayers’ Property



We identified three seizures in which the payment terms were not correctly stated in the
newspaper notice and two seizures in which the payment terms were not stated. The Internal
Revenue Manual (IRM) requires that the notice of sale contain the description of the property;
the date, time, and place of sale; the payment terms; and information on the grouping of
property.7 However, neither the IRM section nor the corresponding Template to Provide
Publisher to Meet Statutory Requirements of Advertising8 states that the newspaper
advertisement must contain the same information as provided on the Form 2434, Notice of
Public Auction Sale, or when applicable on the Form 2434–A, Notice of Sealed Bid Sale.

Taxpayers were not always provided notices of seizure with accurate liability
balances
I.R.C. § 6335(a) requires the IRS, as soon as practicable after the seizure of property, to provide
the owner of the property with a notice in writing that specifies the liability for which the seizure
was made and an accounting of the property seized.
The IRM9 provides guidance on completing Form 2433, Notice of Seizure.10 It requires that the
liability shown on Form 2433 agrees with the taxpayer’s total amount due for the tax modules11
listed on the Form 668-B, Levy.12 This amount should include all accruals and match the Total
Amount Due on Form 668-B. If there is a difference in amount, it should be documented in the
Integrated Collection System13 history. The items of property seized should be described and
identified with reasonable certainty in an inventory listed on the Form 2433 or in an attachment
to the Form 2433. We identified four seizures in which the Forms 2433 provided to the
taxpayers did not show the correct liabilities for which the seizures were made. Because the
number of errors was small and they did not appear to be systemic in nature, we are not making
any recommendations for this issue.




7
  IRM 5.10.4.12 (4) (Jul. 3, 2009).
8
  IRM Exhibit 5.10.4-6 (Jul. 3, 2009).
9
  IRM Exhibit 5.10.3-4 (Jan. 22, 2008).
10
   Form 2433 is the taxpayer’s receipt for the seized property. The document specifies the sum demanded – for
personal property, a list of the property seized; and for real property, a description of the property seized.
11
   Tax module refers to each tax return filed by the taxpayer for a specific period (year and quarter) during a
calendar year for each type of tax.
12
   A levy is a means to take property by legal authority to satisfy a tax debt. The IRS uses a levy as a tool to collect
on balance-due accounts that are not being paid voluntarily.
13
   The Integrated Collection System is an automated system used to control and monitor delinquent cases assigned to
revenue officers in the field offices.
                                                                                                               Page 4
                    Fiscal Year 2012 Review of Compliance With Legal Guidelines
                          When Conducting Seizures of Taxpayers’ Property



Proceeds resulting from the sales of seized properties were not always properly
applied to taxpayers’ accounts
I.R.C. § 6342(a) and the IRM require any money realized by seizure or by sale of seized property
to be applied in the following order:
     1) Against the expenses of the proceedings.
     2) Against any unpaid tax imposed by any Internal Revenue law against the property seized
        and sold (e.g., an excise tax).
     3) Against the liability with respect to which the levy was made or the sale was conducted
        (the accounts appearing on the Form 668-B).
Because the I.R.C. requires funds realized under seizure and sale proceedings to be applied first
to the expenses of the levy and sale, the IRM14 requires the proceeds to be credited to the
taxpayer’s account using a Transaction Code15 694, Designated Payment of Fees and Collection
Costs, for the amount of the expenses. We identified three seizures for which the proceeds were
not posted to the taxpayers’ accounts using a Transaction Code 694 for the amounts applicable to
the expenses. In two seizures, the entire proceeds were entered using a Transaction Code 670,
Subsequent Payment, which is used to record tax liability payments; *************1*****
*************************************1***************************************.
Because the number of errors was small and they did not appear to be systemic in nature, we are
not making any recommendations for this issue.

Accurate information relating to the seizures and sales of properties was not
always provided to the taxpayers as required
I.R.C. § 6335 (e)(1)(A) requires that before the sale of property seized by levy, the IRS must
determine a minimum sales price which considers the expense of making the levy and
conducting the sale. The IRM16 states that IRS policy limits the minimum bid to the
Government’s lien interest in the property plus costs.
I.R.C. § 6340(a) requires the IRS to keep a record of all sales of property. The record should
include the tax for which any such sale was made, the dates of the seizure and sale, the name of
the party assessed, all proceedings in making the sale, the amount of the expenses, the names of
the purchasers, and the date of the deed or certificate of sale of personal property. I.R.C.
§ 6340(c) requires that the taxpayer be furnished the record of sale under subsection (a) (other
than the names of the purchasers).


14
   IRM 5.10.6.2(2) (Jul. 3, 2009).
15
   Transaction codes are used to identify transactions being processed to the IRS computer systems and to maintain a
history of actions posted to a taxpayer’s account.
16
   IRM 5.10.4.8(2) (Jul. 3, 2009).
                                                                                                            Page 5
                    Fiscal Year 2012 Review of Compliance With Legal Guidelines
                          When Conducting Seizures of Taxpayers’ Property



The IRM17 requires the minimum bid price and the basis for computation be provided to the
taxpayer. **************************************1***************************
*****************************************1************************************
******************************************1***************************.
The IRM18 lists the Record 21, Record of Seizure and Sale,19 Form 2434-B, Notice of
Encumbrances Against or Interests in Property Offered for Sale, and Letter 3074, Transmittal
Letter Providing Balance Remaining on the Account after Application of Proceeds, as the three
documents to be retained in the permanent record and to be provided to the taxpayer. **1**
************************************1***************************. Because the
number of errors was small and they did not appear to be systemic in nature, we are not making
any recommendations for this issue.

Recommendation
The Director, Collection Policy, Small Business/Self-Employed Division, should:
Recommendation 1: Include an instruction in the IRM that the newspaper advertisement
must contain the same legal description of the property; the date, time, and place of sale;
payment terms; and information on grouping of property that is shown on either Form 2434 or
2434-A. This instruction should also be provided on the IRM Template to Provide Publisher to
Meet Statutory Requirements of Advertising.20
         Management’s Response: IRS officials agreed with the recommendation and plan to
         revise the IRM to specifically require that the Notice of Sale contain the same information
         as the advertisement.




17
   IRM 5.10.4.8.2 (2) (Jul. 3, 2009).
18
   IRM 5.10.6.12 (2) (Jul. 3, 2009).
19
   Record 21 is a three-part form that documents various aspects of the seizure and sale process. It includes
information such as the assessments under which the seizure was made, description of the property seized,
information regarding the advertisement of the sale, the proceeds and expenses of the seizure and sale, and the date
on which the certificate of sale was issued and to whom.
20
   IRM Exhibit 5.10.4-6 (Jul. 3, 2009).
                                                                                                             Page 6
                    Fiscal Year 2012 Review of Compliance With Legal Guidelines
                          When Conducting Seizures of Taxpayers’ Property



                                                                                                   Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether seizures1 conducted by the IRS
complied with legal provisions set forth in I.R.C. §§ 6330 through 6344 and with the IRS’s own
internal procedures.2 We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective.
To accomplish our objective, we:
I.       Obtained documentation of national guidelines provided to employees; identified IRS
         systems, policies, and practices for ensuring compliance with legal provisions and
         internal procedures related to seizures; and determined how these tools were used.
II.      Selected and reviewed a random sample of 50 of the 747 seizures conducted by the IRS
         from July 1, 2010, through June 30, 2011. We reviewed the sample of seizures to
         determine whether the IRS complied with legal provisions and internal procedures, and
         whether the proceeds and applicable expenses of the seizures and sales were properly
         recorded to the taxpayers’ accounts on the IRS’s main computer system. We used a
         random sample to ensure that each of the 747 seizures had an equal chance of being
         selected.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the Small Business/Self-Employed
Division Collection function’s policies, procedures, and practices for conducting seizures of
taxpayers’ property under the provisions of I.R.C. §§ 6330 through 6344. We did not assess
internal controls because doing so was not applicable within the context of our audit objective to
determine whether the IRS complied with these legal provisions.




1
 Taking a taxpayer’s property for unpaid tax is commonly referred to as a seizure.
2
 This audit was not intended to determine whether the decision to seize was appropriate or to identify the cause of
any violations.
                                                                                                             Page 7
                Fiscal Year 2012 Review of Compliance With Legal Guidelines
                      When Conducting Seizures of Taxpayers’ Property



                                                                            Appendix II

                Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Frank Dunleavy, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Carl L. Aley, Director
Glen J. Rhoades, Audit Manager
Janis Zuika, Lead Auditor
Matthew J. Schimmel, Senior Auditor




                                                                                     Page 8
                Fiscal Year 2012 Review of Compliance With Legal Guidelines
                      When Conducting Seizures of Taxpayers’ Property



                                                                           Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Field Collection, Small Business/Self-Employed Division SE:S:C
Director, Collection Policy, Small Business/Self-Employed Division SE:S:C:CP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                  Page 9
                    Fiscal Year 2012 Review of Compliance With Legal Guidelines
                          When Conducting Seizures of Taxpayers’ Property



                                                                                                Appendix IV

                                      Outcome Measure

This appendix presents detailed information on the measurable impact that our review will have
on tax administration. This benefit will be incorporated into our Semiannual Report to Congress.

Type and Value of Outcome Measure:
   Taxpayer Rights and Entitlements – Actual; nine taxpayers1 for whom the IRS did not
    comply with legal provisions and internal procedures when conducting seizures2 (see page 3).

Methodology Used to Measure the Reported Benefit:
We selected and reviewed a random sample of 50 of the 747 seizures conducted from
July 1, 2010, through June 30, 2011. While we did not identify any instances in which the
taxpayers were adversely affected, not adhering to legal and internal guidelines could result in
the abuse of taxpayers’ rights.




1
  We identified 11 seizures in which the IRS did not follow all legal and internal guidelines. In two of these
seizures, the violations only involved administrative or accounting guidelines that would not reasonably be expected
to result in abuses of taxpayer rights.
2
  Taking a taxpayer’s property for unpaid tax is commonly referred to as a seizure.
                                                                                                           Page 10
                     Fiscal Year 2012 Review of Compliance With Legal Guidelines
                           When Conducting Seizures of Taxpayers’ Property



                                                                                                     Appendix V

             Synopsis of Selected Legal Provisions for
                       Conducting Seizures

I.R.C. § 6330 requires the IRS to issue the taxpayer a notice of his or her right to a hearing prior
to seizure1 action. The notice must be 1) given in person, 2) left at the taxpayer’s home or
business, or 3) mailed as certified-return receipt requested no fewer than 30 calendar days before
the day of the seizure. The notice must explain in simple terms 1) the amount owed, 2) the right
to request a hearing during the 30-calendar-day period, and 3) the proposed action by the IRS
and the taxpayer’s rights with respect to such action.
The statute of limitations for collection is suspended from the time a taxpayer requests a hearing
and while such hearings and appeals are pending, except when the underlying tax liability is not
at issue in the appeal and the court determines that the IRS has shown good cause not to suspend
the seizure. No limitation period may expire before 90 calendar days after a final determination.
These procedures do not apply if the collection of tax is at risk.
I.R.C. § 6331 authorizes the IRS to seize a taxpayer’s property for unpaid tax after sending the
taxpayer a 30-calendar-day notice of intent to levy.2 This Section also prohibits seizure 1) during
a pending suit for the refund of any payment of a divisible tax, 2) before a thorough investigation
of the status of any property subject to seizure, or 3) while either an offer in compromise3 or an
installment agreement is being evaluated and, if necessary, for 30 additional calendar days
during which the taxpayer may appeal the rejection of the offer in compromise or installment
agreement.
I.R.C. § 6332 requires a third party in possession of property subject to seizure to surrender such
property when a levy notice is received. It contains sanctions against third parties that do not
surrender such property when a levy notice is received.
I.R.C. § 6333 requires a third party with control of books or records containing evidence or
statements relating to property subject to seizure to exhibit such books or records to the IRS
when a levy notice is received.




1
  Taking a taxpayer’s property for unpaid tax is commonly referred to as a seizure.
2
  A levy is a means to take property by legal authority to satisfy a tax debt. The IRS uses a levy as a tool to collect
on balance-due accounts that are not being voluntarily paid.
3
  An offer in compromise is a proposal by a taxpayer to settle an unpaid account(s) for less than the full amount of
the balance due.
                                                                                                               Page 11
                    Fiscal Year 2012 Review of Compliance With Legal Guidelines
                          When Conducting Seizures of Taxpayers’ Property



I.R.C. § 6334 enumerates property exempt from seizure. The exemption amounts are adjusted
each year and included $8,250 for the period July 1 through December 31, 2010, and $8,370 for
the period January 1 through June 30, 2011, for fuel, provisions, furniture, and personal effects;
and $4,120 for the period July 1 through December 31, 2010, and $4,180 for the period
January 1 through June 30, 2011, for books and tools necessary for business purposes. Also, any
primary residence, not just the taxpayer’s, is exempt from seizure when the amount owed is
$5,000 or less. Seizure of the taxpayer’s principal residence is allowed only with the approval of
a U.S. District Court judge or magistrate. Property used in an individual taxpayer’s business is
exempt except with written approval of the Area Office4 Director, and the seizure may be
approved only if other assets are not sufficient to pay the liability.
I.R.C. § 6335 contains procedures for the sale of seized property. Notice must be given to the
taxpayer; the property must be advertised in the county newspaper or posted at the nearest
U.S. Postal Service office; and such notices shall specify the time, place, manner, and conditions
of sale. This Section requires that the property be sold no fewer than 10 calendar days or more
than 40 calendar days from the time of giving public notice. Finally, this Section expressly
prohibits selling seized property for less than the minimum bid.
I.R.C. § 6336 contains procedures for the accelerated disposition of perishable property. This is
property such as fresh food products or any property that requires prohibitive expenses to
maintain during the normal sale time period. The property may either be sold quickly or
returned to the taxpayer in exchange for payment of a bond.
I.R.C. § 6337 allows the taxpayer to redeem seized property prior to sale by paying the amount
due plus the expenses of the seizure. It also allows a taxpayer to redeem real property within
180 calendar days of the sale by paying the successful bidder the purchase price plus 20 percent
per annum interest.
I.R.C. § 6338 requires the IRS to give purchasers of seized property a certificate of sale upon
full payment of the purchase price. This includes issuing a deed to real property after expiration
of the 180-calendar-day period required by I.R.C. § 6337. The deed is exchanged for the
certificate of sale issued at the time of the sale.
I.R.C. § 6339 provides the legal effect of the certificate of sale for personal property and the
transfer deed for real property.
I.R.C. § 6340 requires each Area Office to keep a record of all sales of seized property. This
record must include the tax for which such sale was made, the dates of seizure and sale, the name
of the party assessed, all proceedings in making such sale, the amount of the expenses, the names
of the purchasers, and the date of the deed or certificate of sale of personal property. The


4
 A geographic organizational level used by IRS business units and offices to help their specific types of taxpayers
understand and comply with tax laws and issues.
                                                                                                            Page 12
                    Fiscal Year 2012 Review of Compliance With Legal Guidelines
                          When Conducting Seizures of Taxpayers’ Property



taxpayer will be furnished 1) the information above except the purchasers’ names, 2) the amount
of such sale applied to the taxpayer’s liability, and 3) the remaining balance of such liability.
I.R.C. § 6341 allows expenses for all seizure and sale cases.
I.R.C. § 6342 enumerates how the proceeds of a seizure and sale are to be applied to a
taxpayer’s account. Proceeds are applied first to the expenses of the seizure and sale
proceedings. Any remainder is then applied to the taxpayer’s liability.
I.R.C. § 6343 outlines various conditions under which a seizure may be released and property
returned to the taxpayer. These conditions include full payment of the liability, determination of
a wrongful seizure, financial hardship, etc. This Section allows a consent agreement between the
United States and either the taxpayer or the National Taxpayer Advocate5 when the return of
seized property would be in the taxpayer’s best interest.
I.R.C. § 6344 contains cross-references for I.R.C. §§ 6330 through 6344.
Public Law Number 105-206 (IRS Restructuring and Reform Act of 1998)6 § 3443 required
the IRS to implement a uniform asset disposal mechanism by July 22, 2000, for sales of seized
property under I.R.C. § 6335. This mechanism was designed to remove revenue officers7 from
participating in the sales of seized assets.
Public Law Number 105-206 (IRS Restructuring and Reform Act of 1998) § 3421 required
the IRS to employ a supervisory review of seizures before action is taken.




5
  The Taxpayer Advocate Service is an independent organization within the IRS whose employees assist taxpayers
seeking help in resolving tax problems that have not been resolved through normal channels or who are experiencing
significant hardships.
6
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
7
  The employees who make personal contacts with taxpayers about the collection of unpaid tax are referred to as
revenue officers.
                                                                                                        Page 13
                Fiscal Year 2012 Review of Compliance With Legal Guidelines
                      When Conducting Seizures of Taxpayers’ Property



                                                                                      Appendix VI

                      Prior Reports on Compliance
                        With Seizure Procedures

Reference
No. (Date)     Report Title
 199910072     The Internal Revenue Service Needs to Improve Compliance With Legal and Internal
(Sept. 1999)   Guidelines When Taking Taxpayers’ Property for Unpaid Taxes
2000-10-114    The Internal Revenue Service Has Significantly Improved Compliance With Legal and
(Aug. 2000)    Internal Guidelines When Seizing Taxpayers’ Property
2001-10-061    Letter Report: The Internal Revenue Service Complied With Legal and Internal Guidelines
(May 2001)     When Seizing Property for Payment of Tax
2002-10-005    The Internal Revenue Service Has Taken Significant Actions, But Increased Oversight Is
(Nov. 2001)    Needed to Fully Implement the Uniform Asset Disposal Mechanism
2002-40-155    The Internal Revenue Service Continues to Comply With the Law When Seizing Taxpayers’
(Aug. 2002)    Property
2003-40-115
               Fiscal Year 2003 Statutory Audit of Compliance With Seizure Procedures
(May 2003)
2004-30-149    Legal and Internal Guidelines Were Not Always Followed When Conducting Seizures of
(Aug. 2004)    Taxpayers’ Property
2005-30-091    Fiscal Year 2005 Review of Compliance With Legal Guidelines When Conducting Seizures
 (Jun. 2005)   of Taxpayers’ Property
2006-30-113    Fiscal Year 2006 Review of Compliance With Legal Guidelines When Conducting Seizures
(Aug. 2006)    of Taxpayers’ Property
2007-30-109    Fiscal Year 2007 Review of Compliance With Legal Guidelines When Conducting Seizures
 (Jul. 2007)   of Taxpayers’ Property
2008-30-126    Fiscal Year 2008 Review of Compliance With Legal Guidelines When Conducting Seizures
 (Jun. 2008)   of Taxpayers’ Property
2009-30-077    Fiscal Year 2009 Review of Compliance With Legal Guidelines When Conducting Seizures
(May 2009)     of Taxpayers’ Property
2010-30-049    Fiscal Year 2010 Review of Compliance With Legal Guidelines When Conducting Seizures
(May 2010)     of Taxpayers’ Property
2011-30-049    Fiscal Year 2011 Review of Compliance With Legal Guidelines When Conducting Seizures
(May 2011)     of Taxpayers’ Property

                                                                                                Page 14
    Fiscal Year 2012 Review of Compliance With Legal Guidelines
          When Conducting Seizures of Taxpayers’ Property



                                                   Appendix VII

Management’s Response to the Draft Report




                                                           Page 15
Fiscal Year 2012 Review of Compliance With Legal Guidelines
      When Conducting Seizures of Taxpayers’ Property




                                                       Page 16
